,1

.

No.

TN THE
SUPREME COURT OF THE UNITED STATES

DAVID CLAYTON CONERLY—PETITI ONER
VSL.
UNITED STATES OF AMERICA—RESPONDENT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Steven S. Lubliner (California State Bar No. 164143)
LAW OFFICES OF STEVEN S. LUBLINER
PO. Box 750639
Petaluma, CA 94975
Phone: (707)789-0516
e-mail: sslubliner@comcast.net
Attorney for Petitioner David Clayton Conerly

>

The petitioner asks leave to file the attached petition for a writ of
certiorari without prepayment of costs and to proceed in forma pauperis.
Pursuant to the Criminal Justice Act, the undersigned was appointed by the
Northern District of California to represent petitioner in the Ninth Circuit on
January IS, 2019.
Dated: July 8, 2020

Steven S. Lubliner
Attorney for Petitioner
David Clayton Conerly

